Report No. D-2011-035                January 31, 2011




            Independent Auditor's Report on the
             DoD FY 2010 Detailed Accounting
               Report of the Funds Obligated
                 for National Drug Control
                     Program Activities
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704
DASD (CN & GT) initially reprogrammed the funds from the Central Transfer Account
to the 000 Components using project codes. The 000 Components provided year-end
obligation data to DASD (CN & GT) through the DASD CN database, which compiled
the data into one obligation report. In order to present the obligations by functional area
as required by the "Drug Control Accounting" Circular, DASD (CN & GT) applied
percentages to each proj ect code in the consolidated repOit to compute the amounts
presented in the table of obligations, instead of obtaining the information directly from
the accounting systems.

Based on our review, except for the DASD (CN & GT) use of percentages to calculate
the obligations presented by functional area, nothing came to our attention during the
review that caused us to believe the detailed accounting of funds obligated by 000 on the
National Drug Control Program for FY 20 lOis not presented fairly, in all material
respects, in conformity with the "Drug Control Accounting" Circular.



                                              f~                 a. /J1wuJv
                                              Patricia A. Marsh, CPA
                                              Assistant Inspector General
                                              Defense Business Operations




                                             2
                                OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE
                                              2500 DEFENSE PENTAGON
                                             WASHINGTON, D.C. 20301-2500




     SPECIAL OPERATIONSI
    LOW-lNTENSITY CONFLICT                                                                     JAN 0 :l 2()1t
& INTERDEPENDENT CAPABILITIES




          Mr. Jon Rice
          Associate Director
          Performance and Budget
          Office of National Drug Control Policy
          750 17th Street, NW
          Room 535
          Washington, DC 20503

          Dear Mr. Rice:

                The drug methodology used to calculate obligations by drug control function of Fiscal
          Year 2010 budgetary resources is reasonable and accurate. The obligation table in Tab A
          was generated by the methodology as reflected in Tab B. The obligations are associated
          with a financial plan that properly reflects all changes made during the fiscal year. The
          Countemarcotics Central Transfer Account does not receive Fund Control Notices.

               Performance Reporting will be addressed under separate correspondence. My point
          of contact for this action is Mr. Eric Vazquez, 703-614-8849, e-mail eric.vazquez@osd.mil.



                                                      &. e~---
                                                      Deputy Assistant Secretary of Defense
                                                      Countemarcotics and Global Threats




          Enclosures:
          As stated

          CF:
          DODrG
                                                                        UNCLASSIFIED

                                        Counternarcotics Central Transfer Account Obligations
                                                                            ($ 000)


ONDCP Resource Categories                                   FY-IO
    Intelligence: Dom Law Enforcement                        43,545
    Intelligence: Interdiction                               31,106
    Intelligence: International                             127,130
    Interdiction                                            310,914
    International                                           529,980
    Investigative                                            52,748
    Prevention                                              126,861
    Prosecution                                                     o
    R&D: Interdiction                                        17,427
    R&D: International                                        1,442
    State and Local Assistance                              157,405
    Treatment                                                 7,454
    TOTAL                                               1.406.010   *

    * This amount inlcudes a 0.98% obligation rate for MILPERS and a 0.98% obligation rate for O&M.   Investment appropriations, which
    are multi-year, are currently obligated at 0.46%.




DRUG RESOURCES PERSONNEL SUMMARY
    Total FTEs                                                1.708




                                                                        UNCLASSIFIED
                                                                                1
                                   DRUG METHODOLOGY



Central Transfer Account

        The Counternarcotics Central Transfer Account (CTA) was established in paD 676
in November 1969. Under the CTA. funds are appropriated by Congress to a single
budget line, not to the Services baselines. The CTA accounts for all counternarcotics
resources for the Department of Defense with the exception of OPTEMPO and Active Duty
MILPERS. Funds are reprogrammed from the CTA to the Services and Defense Agencies
in the year of execution. The CTA allows for greater execution flexibility in the
countemarcotics program with the ability to realign resources to address changes in
requirements. The CTA is essential to respond effectively to the dynamic nature of the
drug threat.

       The Office of National Drug Control Policy (ONOCP) reports within the National
Drug Control Strategy the amount of funds appropriated to the countemarcotics CTA. The
actual obligations for the countemarcotlcs program for a particular fiscal year differ from
the amount released to the CTA since some of the DoD counternarcotics effort is executed
with multi-year funding.

       The reprogramming process begins with reprogramming documents (001415 and
001105) prepared by the Office of the Deputy Assistant Secretary of Defense for
Countemarcotics and forwarded to DoD Comptroller. Funds are reprogrammed to the
applicable appropriation/budget actiVity at the Service/Defense Agency by project (e.g.,
Navy's Fleet Support. Hemispheric Radar System, Counternarcotics ROT&E). The
intemal reprogramming (lR) action requires no congressional notification/approval.

         The services/Defense Agencies have their own intemal accounting systems for
tracking obligations of funds transferred from the Countemarcotics CTA. The following
examples prOVide the process of how obligations are tracked:
•	 The Army Budget Office receives obligation data from the Defense Finance and
    Accounting System (OFAS) on a monthly basis and funds are tracked by the
    OFAS/Standard Army Financial Information System (STANFINS).
•	 The Air Force uses the USAF General Accounting & Finance System (GAFS) and the
    Commanders Resources Integration System (CRIS) to track obligations. Both of these
    systems are utilized for Counternarcotics obligations and commitments. These
    systems Interface directly with the OFAS.
•	 The Navy uses the Standard Accounting and Reporting System, Field Level (STARS­
    FL) which provides the means of tracking allocated countemarcotics funds through the
    life cycle of the appropriation at the activity/field level. Navy countemarcotics funding is
    recorded under separate cost centers and sub-cost centers. with a line of accounting
    consisting of subhead, project units and cost codes specifically for countemarcotics
    obligation tracking.
•	 The Army and Air National Guard employs a central accounting service from the OFAS
    to consolidate, aggregate, and report on funds as they are committed. obligated. and
    expended. The Army State and Federal Program Accounting Codes and the Air



                                                                                        Tab B
   Accounting Codes provide funds-tracking mechanisms to reconcile funding at various
   levels of reporting and execution.

        The Services/Defense Agencies provide quarterly obligation reports by project code
to the Office of the Deputy Assistant Secretary of Defense for Counternarcotics (CN).
Beginning in FY 2008, the collection of obligation data has be via the DASD CN database
and compiled into a single countemarcotics obligation report. The obligation and
expenditure data provided by the Services/Defense Agencies are compared against their
total annual countemarcotics funding for each appropriation. At the end ofthe year, the
Services/Defense Agencies provide an end of year data which reflects their actual
obligations, not an estimation.

       The quarterly obligation data collected is by project code, not down to the drug
control function. In order to comply with ONDCP's circular and provide obligation data by
function, it was necessary to use percentages for each project code.
